No. 21SUPREME COURT OF THE UNITED STATES
MELVIN STILLS,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

PROOF OF SERVICE
,2021, as required by
I, Melvin Stills, do swear or declare that on this date.
&
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. The names and addresses
of those served are as follows:
Lawrence J. Goode, Esquire
Office of the District Attorney
Appeals Unit
Three South Penn Square
Philadelphia, PA 19107
I declare under penalty of perjury that the foregoing is true and correct.

/ih jAl

Date:

w

x/

Melvin Stills, NG-3738
SCI Fayette
48 Overlook Drive
La Belle, PA 15450

No. 21SUPREME COURT OF THE UNITED STATES
MELVIN STILLS,
Petitioner,
vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

CERTIFICATION OF MAILING
I, Melvin Stills, do swear or declare that on this dateJL / V_________ ,2021, that I have
deposited the above captioned writ of certiorari and ancillary documents into the prison
mail system.
I declare under penalty of perjury that the foregoing is true and correct.

Date:

Ai

Melvin Stills, NG-3738
SCI Fayette
48 Overlook Drive
La Belle, PA 15450

RECEIVED
FEB 1 9 2021
iGg,C|M0/cTgS^

